Supreme Court, U.S.
FILED

JUL 1 5 2020
OFFICE OF THE CLERK

NO. 20-

;/3

IN THE
SUPREME COURT OF THE UNITED STATES

In re Jerald Hammann, Petitioner,
and
Jerald Hammann, Petitioner,
vs.
Wells Fargo Bank, N. A., Respondent.

On Petition for a Writ of Certiorari to the
Minnesota Supreme Court

PETITION FOR A WRIT OF CERTIORARI
Jerald A. Hammann
1566 Sumter Ave N
Minneapolis, MN 55427
jerrympls@gmail.com
(612) 290-7282
Petitioner, pro se

/Ov

rr

*Dj
|
»hl h
f. M
y

na

1

QUESTIONS PRESENTED
The first question presented is whether existing
judicial procedures and standards are adequate to
protect individual constitutional rights.
The second question presented is whether the
court erred in declining to grant a writ of prohibition.
The third question presented is whether the court
erred in declining to find the underlying orders and
judgment void.
The fourth question presented is whether the
court erred in its determinations relating to the
deemed dismissal rule.

11

\

iii

TABLE OF CONTENTS
1
QUESTIONS PRESENTED.................................
v
TABLE OF AUTHORITIES................................
1
PETITION FOR A WRIT OF CERTIORARI.....
1
OPINIONS BELOW.............................................
1
JURISDICTION....................................................
CONSTITUTIONAL AND STATUTORY
2
PROVISIONS INVOLVED............................
3
STATEMENT OF THE CASE.............................
REASONS FOR GRANTING THE PETITION
I. STATE COURT WILL AND DID DENY
PETITONER’S INDIVIDUAL
CONSTITUTIONAL RIGHTS....................... 16
II. AVAILABLE REMEDIES TO PROTECT
CONSTITUTIONAL RIGHTS HAVE BEEN
EXHAUSTED.................................................. 18
III.A NEW STRUCTURE MUST BE CREATED SO
AVAILABLE REMEDIES AND ANY NEW
REMEDIES TO PROTECT CONSTITUTIONAL
RIGHTS MAY PROPERLY FUNCTION......... 19
IV. COURT ERRED IN DECLINING TO GRANT
PROHIBITION................................................... 24
V. COURT ERRED IN DECLINING TO FIND
UNDERLYING ORDERS AND JUDGMENTS
VOID................................................................... 26
VI. COURT ERRED IN EVALUATING THE
DEEMED DISMISSAL RULE........................... 28
CONCLUSION......................................................... 34

IV

APPENDIX
Appendix A:

Supreme Court Order: A19-1816
la
(Feb. 18, 2020)...............................
Appendix B: Supreme Court Order: A19-1304
2a
(May. 19, 2020)..............................
Appendix C: Appellate Order Denying Writ
(Dec. 17, 2019)...............................
3a
Appendix D: Appellate Opinion Dismissing Claims
(Feb. 24, 2020)....................... ...
5a
Appendix E: Standing Order (Mar. 5, 2018)......11a
Appendix F: Compilation of Cases Involving Wells
Fargo as a First-Named Plaintiff
(Jan. 1, 2014 - Dec. 31, 2018).......14a
Appendix G: Compilation of Cases Involving Wells
Fargo as a First-Named Defendant
(Jan. 1, 2014 - Dec. 31, 2018).......16a
Appendix H: Detail of Civil-Other Cases Involving
Wells Fargo as a First-Named
Defendant
(Jan. 1, 2014 - Dec. 31, 2018).......18a
Appendix I: Detail of Appellate Cases Involving
Wells Fargo as a First-Named Party
(Jan. 1, 2014 - Dec. 31, 2018).......22a
Appendix J: Detail of Contested Minnesota State
Court Cases Involving Wells Fargo as
a First-Named Party
(Jan. 1, 2014- Dec. 31, 2018).......24a
Appendix K: Detail of Contract and Other Civil
Cases With A Jury Trial (Held) Event
Code But With No Jury Verdict
(Jan. 1, 2018 - Dec. 31, 2018)....... 30a

V

TABLE OF AUTHORITIES
Constitutional Provisions
Fifth, Seventh, and Fourteenth Amendments to the
2
U.S. Constitution........................
2
Article III of the U.S. Constitution
Cases
Arizona v. Fulminante,
499 U.S. 279, 309-310 (1991).......................
Bivens v. Six Unknown Named Agents,
403 U.S. 388, 397(1971)...............................
Elevens v. Town ofBow,
146 N.H. 67, 767 A.2d 446, 449 (2001).......
Bolling v. Sharpe,
347 US 497, 499 (1954).................................
Caperton v. A. T. Massey Coal Co.,
129 S. Ct. 2252, 2254 (2009)..........................
County ofHennepin v. 6131 Colfax Ln.,
907 N.W.2d 257 (2018)..................................
District Attorney's Office v. Osborne,
129 S.Ct. 2308, 2319 (2009).........................
Gamble v. United States,
139 S. Ct. 1960, 2009 (2019)........................
In re Wilkins,
780 N.E.2d 842, 848 (Ind.2003)...................
Kulinski v. Medtronic BioMedicus, Inc.,
577 NW 2d 499, 502-03 (Minn. 1998).........
Marbury v. Madison,
1 Cranch 137, 163 (1803)..............................
Park Elm Homeowner's Ass'n v. Mooney,
398 NW 2d 643, 646-47 (Minn.App. 1987);
Petzold v. Kessler Homes, Inc.,
303 S.W.3d 467, 473 (Ky.2010)....................

3
16
23
17
20
4
21
19
23
27
16
27
23

VI

Senior Citizens Coal. ofNe. Minn. v. Minn. Pub.
Utils. Comm'n,
355 N.W.2d 295, 302 (Minn. 1984).............. .... 27
Sherman v. State,
128 Wash.2d 164, 905 P.2d 355, 378 (1995)......23
State v. Logan,
236 Kan. 79, 689 P.2d 778, 784 (1984)
23
State v. McCabe,
23
201 N.J. 34, 987 A.2d 567, 572 (2010).
State v. Pratt,
23
813 NW 2d 868, 876 fn.7 (Minn. 2012)
United States v. Gonzalez-Lopez,
16
548 U. S. 140, 157 (2006)......................
United States v. Haymond,
18
139 S. Ct. 2369, 2376 (2019).................
United States v. Sineneng-Smith,
33
_ U.S.___, (2020)..................................
Statutes, Rules and Ordinances
28 U.S. Code § 1257 .............................................
28 U.S. Code § 1331.............................................
Minnesota Rule of Civil Procedure 5.04(a)......
Minnesota Rule of Civil Procedure 11.............
Minnesota Rule of Civil Procedure 26.01........
Minnesota Rule of Civil Procedure 30.01........
Minnesota Rule of Civil Procedure 33.01(b)....
Minnesota Rule of Civil Procedure 34.02(c)(1)
Minnesota Rule of Civil Procedure 36.01........
Minnesota Rule of Civil Procedure 37.01(b)(2)
Minnesota Rule of Civil Procedure 45.04(b)(1)
Minnesota Rule of Civil Procedure 60.02(4)....
Minnesota Statute § 484.70................................
Minnesota Statute § 504B.285..........................
Minnesota Statute § 504B.365(4)......................
Minnesota Statute § 580......................................

16
16
32
:. 31
28
28
29
29
29
32
31
27
22
28
7
26

Vll

Protecting Tenants at Foreclosure Act of 2009,
Pub.L. No. 111-22, § 702, 123 Stat. 1632, 1661
(codified at 12 U.S.C. § 5220 note
(Supp.V.2012))...................................................... . 28
The Voting Rights Act of 1965 .................................. 21
Other Authorities
Administrative Office of the US Courts Civil
11
Terminations dataset (1980-2009)............
Administrative Office of the US Courts Civil Trials
13
dataset (2019)
Brian J. Ostrom, Shauna M. Strickland, and Paula
L. Hannaford-Agor, “Examining Trial Trends in
State Courts^ 1976-2002,” Journal of Empirical
Legal Studies 1, no. 3 (November 2004): 755-782,
14
Figs. 11, 13........................................................
Burbank, Stephen B., “Keeping our Ambitions
Under Control: The limits of Data and Inference
in Searching for the Causes and Consequences of
Vanishing Trials in Federal Court. 1 J. Empirical
Legal Stud. 571, 575 (2004)................................. 13
Code of Judicial Conduct........................................... 22
Frankel, Allison; “Stunning drop in federal
plaintiffs’ win rate is complete mystery - new
study” Reuters, June 28, 2017............................ 11
Galanter, Marc, and Angela M. Frozena, “A Grin
without a Cat: The Continuing Decline &
Displacement of Trials in American Courts,” 143
Daedalus 115, 117 Fig. 1 (2014)........................ 13
Grundman, Luke, et. al. “In eviction proceedings,
lawyers equal better outcomes.” Bench & Bar of
Minnesota (February 2019).............................. 12
Lahav, Alexandra D. and Siegelman, Peter, The
Curious Incident of the Falling Win Rate (July 7,
11
2017)

Vlll

Lexico.com..................................................................... 24
N. Waters, K. Genthon, S. Gibson, & D. Robinson,
eds. Last updated 20 November 2019 Court
Statistics Project DataViewer.............................. 13

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Hammann respectfully submits this
petition for a writ of certiorari to review the judgment
of the Minnesota State Courts. A state court of last
resort has declined review of important constitutional
questions.
OPINIONS BELOW
The orders and opinions of the Minnesota Courts
are unpublished. Key documents among these are
produced in the Appendix.
JURISDICTION
The Minnesota Supreme Court denied review in
Case Nos. A19-1816 and A19-1304 on February 18,
2020 and May 19, 2020, respectively. The jurisdiction
of this Court is invoked under 28 U.S.C. § 1257(a)
(“where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution . . .
of . . . the United States”) and 1331 (civil injuries
“arising under the Constitution of the . . . United
States.”). Pursuant to this Court’s March 19, 2020,
Order, the deadline to file this petition “is extended to
150 days from the date of the lower court judgment,
order denying discretionary review, or order denying
a timely petition for rehearing.”

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The judicial Power shall extend to all Cases, in
Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made,
to Controversies between . . . Citizens of different
States . . .
Article ID, Section 2 of United States Constitution

No person shall ... be deprived of life, liberty, or
property, without due process of law.
Amendment V to United States Constitution

In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved . . .
Amendment VII to United States Constitution

No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
Amendment XIV to United States Constitution

3
STATEMENT OF THE CASE
Partiality constitutes a “structural defect... in the
constitution of the [civil disposition] mechanism. The
entire conduct of the [civil case] from beginning to end
is obviously affected by . . . the presence on the bench
of a judge who is not impartial.” Arizona v.
Fulminante, 499 U.S. 279, 309-310 (1991).
“[Constitutional deprivations . . . affecting the
framework within which the [case] proceeds” “are not
subject to harmless error.” Id. at 210. This same logic
must apply to systemic partiality which transcends
the conduct of individual judges.
This case exemplifies the difficulty with picking a
lead. Is it that the Minnesota state courts have
reduced civil trial rates by 93% and civil jury trial
rates by 99% since 1992? Is it that the court
overreports its civil trial and jury trial statistics by
24%-31%? Is it that represented parties and parties
receiving limited representation fare twice as well
before the Hennepin County Housing Court compared
to unrepresented parties? Is it that Wells Fargo has
not lost a contested state civil case in Minnesota for
over 5 years, and likely for much longer? Is it that in
many of these cases, it should have lost, but the court
nonetheless permitted it to prevail? Is it that the
Hennepin County District Court has created hidden
rules of civil procedure that benefit Wells Fargo and
other mortgage loan servicers? Is it that the Hennepin
County District Court has created these hidden rules
to prevent future void judgments, but refuses, along
with the entire state court system, to even
acknowledge the argument that similar past
judgments are void? Or is it one unrepresented
party’s search for a structural-defect-free resolution

4
to his relatively simple claims against Wells Fargo?
Because in the existing state court system, he will lose
his case - and indeed, he may already have - while in
a system that preserves his individual constitutional
rights, he will win.
Whatever the lead, perhaps our story should begin
with why there are two cases involving the identical
cause of action, the repossession of personal property
originally held within a foreclosed residential home.
In 1993, the Minnesota Legislature created
specialized housing courts with an accelerated docket
and modified civil procedures (e.g., limited access to
discovery, modified appellate review, etc.) for
residential rental housing matters. The specialized
courts exist in Hennepin and Ramsey Counties,
wherein Minneapolis and St. Paul are located.
However, over time, municipalities and mortgage
servicing entities began using the accelerated dockets
with the modified civil procedures as well, even
though the housing courts had no statutory authority
to handle these cases. Thousands (perhaps even tens
of thousands) of cases brought by mortgage servicing
entities were improperly resolved by the two
specialized housing courts using the accelerated
docket and the modified civil procedures.
When a party complained about the housing
court’s lack of statutory authority over municipal
cases in 2017, it brought attention to this
jurisdictional failing. County of Hennepin v. 6131
Colfax Ln., 907 N.W.2d 257 (2018) In the Colfax
action, the Minnesota Court of Appeals found that
“[t]he housing-calendar program, also known as the
housing court, lacks authority under Minnesota

5
Statutes section 484.013, subdivision 1(a) (2016), to
hear and determine any matter unrelated to
‘residential rental housing.’” Id. at 258. In
anticipation of the adverse ruling, the Hennepin
County District Court created some hidden rules of
civil procedure to handle existing and new cases for
which the housing court lacked statutory authority.
For new cases, Hennepin County Court
Administration would reject the housing court
accelerated docket filing and instruct the filer to
instead file their case under the standard civil docket.
For some of Minnesota’s largest mortgage loan
servicers, below are the dates of their last-filed
housing court case and their first-filed non-housing
court case, demonstrating the existence of the hidden
rule:
Mortgage
Servicer

Housing Court
Accelerated
Docket
(Last-Filed)

Standard Civil
Docket
(First-Filed)

Event• Oral Argument in Colfax (11/01/2017)
Wells Fargo
Bank N.A.

12/21/2017

12/08/2017

Bank of New
York Mellon

12/27/2017

01/28/2018

Event• Colfax Opinion Issues (01/29/2018)
Bank of
America

01/29/2018

01/31/2018

6
Housing Court
Accelerated
Docket
(Last-Filed)

Standard Civil
Docket
(First-Piled)

U.S. Bank

01/30/2018

02/27/2018

JP Morgan
Chase

06/16/2017

02/28/2018

Deutsche
Bank

01/30/2018

02/28/2018

Mortgage
Servicer

Event■ Standing Order Issues (03/05/2018)
Federal
National
Mortgage
Association

12/27/2017

03/27/2018

Notably, despite discontinuing use of the
Hennepin County housing court accelerated docket,
Wells Fargo and each of these other mortgage
servicers other than Bank of New York Mellon
continued to use the Ramsey County housing court
accelerated docket in 2019 and 2020. In the case of
Bank of New York Mellon, it simply has not had any
eviction proceedings in Ramsey County since 2014.
This further demonstrates the existence of the hidden
rule implemented by the Hennepin County judiciary
relating to new cases filed by mortgage servicing
entities.
This treatment follows the civil practice directed
by a Hennepin County Standing Order issued on

7
March 5, 2018 (“Standing Order”). App. 11a.
However, while the Standing Order identifies nine (9)
separate types of cases impacted by the Colfax ruling
(which it never mentions), the Standing Order does
not identify foreclosed residential housing eviction
and related cases, which appear to be the largest
category type of cases wherein the housing court’s
authority and subject-matter jurisdiction was
clarified by the Colfax ruling. In fact, it is possible
that foreclosed residential housing eviction and
related cases exceed the number of cases in all of the
listed nine categories combined.
For new filings in existing cases, Court
Administration would also reject the housing court
accelerated docket filing and instruct the filer to
instead file their case under the standard civil docket.
When Hammann attempted to file a supplemental
complaint into an existing housing court case, Court
Administration rejected the filing and requested that
he instead file a new case:
“Reason(s) for Rejection: Please file this
complaint as a civil case instead of a housing
court case. Use type ‘civil other/misc’ (under the
civil category). The filing fee is still $297.”
When Hammann objected to this instruction as
inconsistent with a Minnesota Statute relevant to his
particular personal property claims,1
Court
Administration referred him to the Standing Order.
However, as mentioned, foreclosed residential
1 Minn. Stat. §504B.365(4) (“court hearing the eviction action
shall retain jurisdiction in matters relating to removal of
personal property”).

8
housing eviction and related cases are not among the
nine types of cases listed in the Standing Order.
Since Hammann was unaware of the Colfax
determination and since the responses he was getting
from Court Administration - and the Standing Order
it cited - did not directly relate to his facts and
circumstances, he motioned the housing court to
compel Court Administration to file his filing in the
existing case. This is where things got interesting.
Hammann was severely punished for attempting
to compel the filing, including the summary rejection
of his claims and the imposition of monetary and
reputational sanctions for making what the court
found to be a frivolous filing. This is Court Case No.
A19-1304, the appeal of a housing court case file
number wherein the housing court lacked authority
and subject matter jurisdiction over both Hammann’s
original claims (relating to Wells Fargo’s unlawful
changing of the locks on his residence and not
providing him a new key) and his new claims (relating
to Wells Fargo’s subsequent conversion of his
personal property remaining in the residence). Then,
Hammann followed Court Administration’s original
directive to create a new case and make his filing in
the new case. This is Court Case No. A19-1816, the
appeal of a non-housing court case file number. So
now, one case has become two.
In this new A19-1816 case, Hammann
immediately exercised his right to recuse the first
judge assigned and then motioned to have the second

9
judge assigned recused for cause.2 He further
motioned that each judge of the district court be
recused for cause and requested that a referee instead
be assigned to the case. Hammann requested that the
referee be a law school senior chosen mutually by the
parties according to a set of procedures Hammann
suggested in a proposed order which tracked
Minnesota’s statutory language relating to judicial
referees. When the judge denied the recusal motion,
Hammann requested review, and requested that
review be conducted by a layperson panel instead of
by a judge according to a set of procedures Hammann
suggested in a proposed order which tracked case law
interpreting Minnesota procedural rules regarding
recusal. However, Hammann proposed changing the
review from that of a judge imagining what an
informed layperson might find to actually having one
or more informed laypersons make findings. These
motions were denied and Hammann sought a writ of
prohibition which was denied by the appellate court.
App. 3a. A petition for review by the state supreme
court was denied on February 18, 2020. App. la.
In the A19-1304 case, Hammann’s conduct was
similar. Since the state district housing court sua
sponte rejected Hammann’s claims and sanctioned
him, there was no substantive district court activity.
Before any appellate panel was assigned, he
unsuccessfully motioned that each court of appeals
judge be recused for cause and requested that a panel
of non-judicial referees instead be assigned to the case
according to a set of procedures Hammann suggested
in a proposed order. Hammann again proposed using
2 Hammann’s reasons for seeking recusal will be detailed
below shortly.

10
referees at the appellate stage, tracking the language
of the referee statute. After the panel was assigned,
Hammann individually motioned for the recusal of
each assigned panel member. When each panel
member denied their respective recusal motion,
Hammann requested review, and requested that
review be conducted by a layperson panel instead of
by a judge according to a set of procedures Hammann
suggested in a proposed order which again tracked
case law interpreting Minnesota procedural rules
regarding recusal. This motion was denied. An
adverse Opinion issued that declined to acknowledge
- or to even acknowledge Hammann’s argument that the order and judgment being appealed from the
housing court was void for lack of authority and
subject matter jurisdiction. App. 5a. Hammann then
motioned (with an accompanying proposed order) to
create a new procedure permitting review of the
Opinion by a layperson panel to precede review by the
Supreme Court. The layperson panel would have the
power to vacate the Opinion if it determined that the
Opinion issued is inconsistent with the rights to equal
protection under the law, to due process of law, or to
a trial or jury trial in all civil cases. This motion was
also denied. The Minnesota Supreme Court declined
discretionary review in the A19-1304 action on May
19, 2020. App. 2a.
Over the course of the two cases, four district court
judges and one referee, along with seven appellate
court judges, had the opportunity to hear or review
the various motions. Not one single person from
among these twelve and not one single appellate
panel addressed the evidence presented in
Hammann’s motions.

11
The evidence presented by Hammann follows^
Federal civil terminations data reveal a
fundamental change in court behavior beginning in
1986. Researchers Alexandra Lahav and Peter
Siegelman documented that in the third quarter of
1985, federal court plaintiffs won almost 70% of
federal cases that were adjudicated to completion.
Ten years later in 1995, plaintiff win rates in federal
courts dropped to 30%.3 Lahav’s and Seigelman’s
research relies upon the Administrative Office of the
US Courts Civil Terminations dataset (1980-2009).
Plaintiffs’ win rates vacillated in the 30%-47% range
from 1995 to 2009, averaging around 35% with a
moderate downward trend. Id. “As you’ve probably
realized, the elephant in the room (or, in this case, the
study) is judicial attitudes.”4 This Civil Terminations
data demonstrates that, since 1995, the federal courts
have been more likely to intentionally deny equal
protection and due process rights to plaintiffs than to
respect them. More than half of plaintiffs who would
have prevailed had their action been brought in 1985
or prior are now no longer receiving the due process —
the justice - to which they are entitled. Indeed, the
fundamental change in court behavior was and is that
federal judges stopped caring about providing equal

3 Lahav, Alexandra D. and Siegelman, Peter, The Curious
Incident of the Falling Win Rate (July 7, 2017). Accessible at
or
https ://ssrn. com/abstract=2993423
SSRN:
http://dx.doi.org/10.2139/ssrn.2993423.
4 Frankel, Allison; “Stunning drop in federal plaintiffs’ win
rate is complete mystery - new study” Reuters, June 28, 2017.
Accessible at www.reuters.com/article/us-otc-mystery/stunningdrop-in-federal-plaintiffs-win-rate-is-complete-mystery-newstudy-idUSKBN19J2MB.

12
justice under the law and instead are intentionally
providing unequal justice.
What statistics show occurred and occurs within
the federal courts also occurred and occurs within the
Minnesota State Courts. As one example, research
conducted by Hammann shows that Wells Fargo has
not lost a single contested state court case since prior
to 2014, despite participating in 4,765 cases as a firstnamed plaintiff or first-named defendant during the
five-year time period from January 1, 2014, through
December 31, 2018. App. 14a-29a. Hammann
discovered numerous instances where the Minnesota
District and Appellate Courts made seemingly
intentional judicial errors to prevent litigants from
prevailing against Wells Fargo. App. 24a-29a. Wells
Fargo, having numerous opportunities to contest
Hammann’s research and conclusions, has remained
silent. As is evident from the Lahav research, this
phenomenon has likely been going on for a great deal
longer than the 5-year period Hammann researched.
Not only is it clear that large corporations like
Wells Fargo have been the beneficiaries of the
unequal protection practiced by the federal and state
courts, but it is also clear that unrepresented litigants
are one class of victims of this practice. As one
example, research conducted by Luke Grundman and
others documented the outcomes of eviction actions
presided over by the Hennepin County Housing
Court. They discovered that represented litigants and
litigants receiving limited representation prevailed
against their eviction actions at twice the rate of
unrepresented litigants (compare 28 litigant wins
over 129 cases (equaling 22%) to 24 unrepresented

13
litigant wins over 219 cases (equaling 11%)).5 73.2%
of Minnesota civil court system cases disposed of in
2018 had at least one unrepresented litigant.6
Recognizing this outcomes disparity, the city of
Minneapolis, Hennepin County, and the Pohlad
Family Foundation recently provided significant
additional financial support to provide some form of
representation to more litigants who would otherwise
participate in eviction proceedings unrepresented. Id.
Not able to change the judiciary, these entities are
instead spending money on trying to reduce a source
of judicial and judicial process bias.
Not only has the judiciary been intentionally
suppressing equal protection rights, but it has also
been intentionally suppressing trial and jury trial
rights. In 1938, the civil trial rate was 18.16% for all
federal court cases.7 From 1962-1968, civil trial rates
occurred within the 11%-12% range for all federal
court cases.8 For the 12-month period ending
September 30, 2019, the total federal civil trial rate

5 Grundman, Luke, et. al. “In eviction proceedings, lawyers
equal better outcomes.” Bench & Bar of Minnesota (February
2019).
6 N. Waters, K. Genthon, S. Gibson, & D. Robinson, eds. Last
updated 20 November 2019
Court Statistics Project
DataViewer. Accessible at www.courtstatistics.org.
7 Burbank, Stephen B., “Keeping our Ambitions Under
Control: The limits of Data and Inference in Searching for the
Causes and Consequences of Vanishing Trials in Federal Court.
1 J. Empirical Legal Stud. 571, 575 (2004).
8 Galanter, Marc, and Angela M. Frozena, “A Grin without a
Cat: The Continuing Decline & Displacement of Trials in
American Courts,” 143 Daedalus 115, 117 Fig. 1 (2014).

14
was 0.7% and the civil jury trial rate was 0.5% of the
0.7%.9
In December 2003, the Civil Justice Initiative
Task Force of the American Bar Association’s (ABA)
Litigation Section sponsored a symposium on the
“vanishing trial,” revealing results from its Vanishing
Trial Project study. The ABA’s intensive research and
organized focus on the judiciary’s suppression of trial
and jury trial rights did not change judiciary conduct,
and the suppression only continued to worsen.
Like with the suppression of equal protection
rights, what occurred and occurs within the federal
judiciary also occurred and occurs within the
Minnesota state judiciary. The civil trial rate is the
sum of the civil jury trial rate and the civil bench trial
rate. In 1992, the Minnesota State Court civil jury
trial rate was approximately 6.8%. At that time, the
average bench trial rate for 10 reporting states
(including Minnesota) was 4.3%.10 By 2002,
Minnesota’s civil jury trial rate had declined to
approximately 4.3%, representing a 38% decline over
10 years.11 In 2018, Minnesota reported disposing of

9 Accessible at https://www.uscourts.gov/statistics/table/c4/judicial-business/2019/09/30.
10 Brian J. Ostrom, Shauna M. Strickland, and Paula L.
Hannaford-Agor, “Examining Trial Trends in State Courts:
1976-2002,” Journal of Empirical Legal Studies 1, no. 3
(November 2004): 755-782, Figs. 11, 13.
11 Id. Fig. 13.

15
1,792 (1.03%) civil cases though bench trial and 201
(0.12%) cases through jury trial.12
Hammann’s research has uncovered that the
actual number of civil jury trials is less than the
reported number. For the 42 Contract and Other Civil
case types where jury trial activity was indicated in
2018, 8 of these cases did not actually have any jury
trial activity (i.e., the Register of Actions stated, “Jury
Trial (Held)”, but no jury trial was actually held).
Hammann also discovered that for 2 of these cases, a
jury trial began but did not reach a verdict (l settled
and 1 was dismissed by the judge during trial). App.
30a. Actual jury trial activity appears to be 24%
(considering jury trials begun) - 31% (considering jury
trials completed) overstated, meaning that a more
accurate count of jury trial activity would be 139
(0.08%) to 153 (0.09%) jury trials for calendar year
2018 (denominator of 174,450).13 It is highly probable
that the bench trial statistics are similarly
overstated, suggesting that the total 2018 state civil
trial rate is 0.79%-0.87%. In summary, since 1992,
Minnesota civil trial rates have declined 93% and civil
jury trial rates have declined 99%. If trials were an
organism, they would be classified as “Extinct in the
Wild”.14

12 N. Waters, K. Genthon, S. Gibson, & D. Robinson, eds.
Last updated 20 November 2019 Court Statistics Project
DataViewer. Accessible at www.courtstatistics.org.
13 See Footnote 12.
14 See www.nationalgeographic.org/media/endangered/.

16
REASONS FOR GRANTING THE PETITION
I. STATE COURT WILL AND DID DENY
INDIVIDUAL
PETITONER’S
CONSTITUTIONAL RIGHTS
“The Constitution, by its terms, does not mandate
any particular remedy for violations of its own
provisions.” United States v. Gonzalez'Lopez, 548 U.
S. 140, 157 (2006). However, “[t]he very essence of
civil liberty certainly consists in the right of every
individual to claim the protection of the laws,
whenever he receives an injury." Bivens v. Six
Unknown Named Agents, 403 U.S. 388, 397 (1971),
citing Marbury v. Madison, 1 Cranch 137, 163 (1803).
At the federal level, 28 U.S. Code § 1331 empowers
the federal courts to address civil injuries “arising
under the Constitution of the . . . United States.” And
28 U.S. Code § 1257 empowers this court to review
state court decisions “where any title, right, privilege,
or immunity is specially set up or claimed under the
Constitution.”
The rights or privileges specially set up to
Hammann under the Constitution that are in
question within this petition are: (a) to have his case
presided over by an impartial decision-maker! (b) to
not have his case marred by the unequal protection
afforded favorably towards Wells Fargo! (c) to not
have his case marred by the unequal protection
afforded disfavorably against unrepresented parties!
(d) to have the right to a trial! and, (e) to have the
right to a jury trial.
“The ‘equal protection of the laws’ is a more
explicit safeguard of prohibited unfairness than ‘due

17
process of law,’ and, therefore, we do not imply that
the two are always interchangeable phrases. But, as
this Court has recognized, discrimination may be so
unjustifiable as to be violative of due process.” Bolling
v. Sharpe, 347 US 497, 499 (1954). The conduct of
partial decision-makers, decision-makers favoring
Wells
Fargo,
decision-makers
disfavoring
unrepresented litigants, decision-makers disfavoring
persons wishing to have a trial, and decision-makers
disfavoring persons wishing to have a jury trial is not
reasonably related to any proper governmental
objective, and thus this conduct imposes upon
Hammann a burden that constitutes an arbitrary
deprivation of his property rights in violation of the
Due Process Clause.
“Liberty under law extends to the full range of
conduct which the individual is free to pursue, and it
cannot be restricted except for a proper governmental
objective.” Id. at 500-01. The conduct described
immediately above also imposes upon Hammann an
unfair burden to protect his property rights and this
burden constitutes an arbitrary deprivation of his
liberty in violation of the Due Process Clause.
Hammann’s right under the Constitution: (a) to
have his case presided over by an impartial decision­
maker! (b) to not have his case marred by the unequal
protection afforded favorably towards Wells Fargo!
and, (c) to not have his case marred by the unequal
against
disfavorably
protection
afforded
unrepresented parties, constitutes a violation of the
Equal Protection Clause.
Hammann’s right under the Constitution to have
a jury trial and to not have his case handled

18
differently because he has requested the right to a
jury trial constitutes a violation of his right to a Civil
Jury Trial.
II. AVAILABLE
REMEDIES
TO
PROTECT
CONSTITUTIONAL RIGHTS HAVE BEEN
EXHAUSTED
Hammann exhausted his available remedies
before the Minnesota state court system. Not only did
he exhaust them, but he proposed several new
remedies at the district and appellate level that these
courts also rejected.
To summarize Hammann’s motion practice in both
cases, every time a judge would have presided over a
non-removahrelated motion, Hammann proposed
that the referee statute instead be applied to permit
the parties to mutually-select a law school senior to
act as a referee and preside. Every time the law called
for a judge to evaluate judicial conduct based on the
perspective of a reasonable layperson, Hammann
proposed that actual reasonable laypersons instead
perform the evaluation. And finally, Hammann
proposed a supplementary appellate procedure (and
he would have proposed an analogous supplementary
district court procedure if his supplemental claims
had not been summarily rejected) for litigants to have
the option to have a constitutional rights assessment
performed by laypersons prior to (and which would
temporarily stay) appellate or supreme court review.
“[Jjuries in our constitutional order exercise
supervisory authority over the judicial function.”
United States v. Haymond, 139 S. Ct. 2369, 2376
(2019). However, the Minnesota State Court System

19
has driven civil jury trials below 0.1%, effectively
eliminating any supervisory authority over their
collective conduct. This elimination of supervisory
authority has permitted the Minnesota State Court
System to select winners and losers in civil actions not
based on the merits of their arguments, but instead
based simply on the characteristics of the litigants
themselves. Wells Fargo should have lost some of its
contested cases before the court, and yet it remains
undefeated. In contrast, unrepresented litigants fare
twice as poorly as represented ones. Hammann
should win his present case against Wells Fargo, but
he will not. In fact, he may have already lost despite
his efforts to obtain a writ of prohibition.
By both exhausting his available remedies and
further, by exhausting remedies that are currently
not available, Hammann demonstrates that not only
are available remedies inadequate to preserve the
rights and privileges specially set up to him under the
Constitution, but he demonstrates that the current
structure within which these remedies are
adjudicated is inadequate to preserve the rights and
privileges specially set up to him under the
Constitution.
m. A NEW STRUCTURE MUST BE CREATED SO
AVAILABLE REMEDIES AND ANY NEW
REMEDIES TO PROTECT CONSTITUTIONAL
RIGHTS MAY PROPERLY FUNCTION
“Enforcing the Constitution always bears its costs.
But when the people adopted the Constitution and its
Bill of Rights, they thought the liberties promised
there worth the costs.” Gamble v. United States, 139
S. Ct. 1960, 2009 (2019) (Gorsuch dissent). The very

20
few current means that exist to enforce the
Constitution to protect individual constitutional
rights are ineffective.
Appellate review often does not result in the
protection of individual constitutional rights. The
systemic suppression of trial and jury trial rights has
been evident since at least 1968. Clear evidence of the
systemic suppression of equal protection rights has
existed at least since 1996. If appellate review could
be relied upon to protect individual constitutional
rights, these trends would never have even arisen.
Moreover, once these trends arose, the appellate
courts could have reversed these trends on a case-by­
case basis. However, as was found specifically in
relation to Wells Fargo, if any party appeals an
adverse substantive ruling favoring Wells Fargo, the
Minnesota Court of Appeals always finds a way to
uphold the judgment. App. 22a-23a. The courts of
appeals have been accomphces in the ongoing
suppression of individual constitutional rights.
Judicial recusal also does not result in the
protection of individual constitutional rights. There
are two fundamental structural flaws in the current
procedures associated with judicial recusal. First,
recusal motions are reviewed by the very same
persons who are orchestrating the suppression of
these individual constitutional rights. Second, while
many of the evaluative standards for recusal are
objective standards,15 some judges nonetheless feel
that the standards or their application are subjective.

15 Caperton v. A.T. Massey Coal Co., 129 S.Ct. 2252, 2255
(2009): “the objective standards implementing the Due Process

21
A “right can, in some circumstances, beget yet
other rights to procedures essential to the realization
of the parent right.” District Attorney's Office v.
Osborne, 129 S.Ct. 2308, 2319 (2009). Because the
very few current means that exist to protect
individual constitutional rights are ineffective,
Hammann proposed the creation of new means. The
Voting Rights Act of 1965 has been called the single
most effective piece of civil rights legislation ever
passed by Congress. Local election officials claimed
that they were discharging their duty to register
voters according to the law without bias or prejudice
and yet statistics and abundant additional evidence
unambiguously showed that these claims were
untrue. As a result of the passage of the Voting Rights
Act, federal examiners began conducting voter
registration - bypassing the biased local election
officials - and black voter registration began a sharp
increase.16 The Act restored the right to vote
guaranteed by the Fourteenth and Fifteenth
Amendments. Id.
Hammann proposes that the court borrow from
the most successful civil rights legislation ever. The
proposed order included with Hammann’s motion to
the Minnesota State Courts provides for a limited
bypass solution utilizing the tools available within
existing Minnesota statutory law. Using the Referee
statute (Minn. Stat. § 484.70 (Referee Positions,
Rules.)), Hammann proposes that referees be selected
Clause do not require proof of actual bias, [instead employing] a
realistic appraisal of psychological tendencies and human
weakness.” (internal quotations omitted).
16 See www.justice.gov/crt/introduction-federal-voting-rights-laws0.

22
from the graduating class of one of the three local law
schools. Each of Hammann and Wells Fargo shall be
permitted up to three objections pursuant to Minn.
Stat. §484.70(6). All functions of the referee shall be
as provided in the statute.
Notably, when the Hennepin County Chief Judge
issued the Standing Order, the provision for referees
was included in the Order. App. 12a- 13a. All
Hammann’s proposed order does in this respect is
change who selects the referees, from the Chief Judge
who uses referees as a tool to enforce the continued
suppression of individual constitutional rights, to the
parties themselves who may use referees as a tool to
begin to remediate the suppression of individual
constitutional rights at the state district court level.
Same means. Different ends.
In addition to a new means for addressing the
suppression of individual constitutional rights,
Hammann also proposes the addition of a new test.
Within the ineffective existing means described above
exist multiple evaluative standards for protecting
individual federal constitutional rights. In the context
of recusal motions, two are described in Caperton v.
A.T. Massey Coal Co., 129 S.Ct. 2252 (2009): (a)
whether the average judge in a similar position likely
would be or would have been neutral in drafting the
order, judgment, or opinion; and, (b) whether the
order, judgment, or opinion would be, or reflects that
it is, the product of an unconstitutionally-high
probability of bias.17

17 In relation to protecting individual state constitutional
rights, the Code of Judicial Conduct often apphes, specifically its

23
For all of the federal and state evaluative
standards, the evaluation is from the perspective of
an objective, unbiased layperson. State v. Pratt, 813
NW 2d 868, 876 fn.7 (Minn. 2012) (“When applying
the ‘reasonable examiner’ test ... we apply the test
from the perspective of a ‘reasonable examiner’ who is
‘an objective, unbiased layperson with full knowledge
of the facts and circumstances.’. The Code is
concerned with public perception and public trust and
confidence.”) (citation omitted). See also, e.g., In re
Wilkins, 780 N.E.2d 842, 848 (Ind.2003); State v.
Logan, 236 Kan. 79, 689 P.2d 778, 784 (1984); Petzold
v. Kessler Homes, Inc., 303 S.W.3d 467, 473
(Ky.2010); Blevens v. Town ofBow, 146 N.H. 67, 767
A.2d 446, 449 (2001); State v. McCabe, 201 N.J. 34,
987 A.2d 567, 572 (2010); and, Sherman v. State, 128
Wash.2d 164, 905 P.2d 355, 378 (1995).
In 1982, an important amendment was made to
the Voting Rights Act, changing the test for
determining an Act violation from an “imposed ... to
deny or abridge” standard to a “totality of
circumstances” standard. This represented a
substantial improvement in the Act because testing
the totality of circumstances rather than the intent
makes it easier to preserve the constitutional right.
Hammann proposes that the court again borrow
from the most successful civil rights legislation ever
by adding a “totality of circumstances” test to the
evaluative tests described above. This test may be
formulated as follows^ whether the totality of the
circumstances likely would or likely did result in an
sections 1.1, 1.2, and 2.11(A). See also Comment 5 to Code of
Judicial Conduct Canon 1.

24
order, judgment, or opinion that suppresses an
individual constitutional right.
One challenge with the existing evaluative tests is
their focus on the judge, when the judge is only one
source of the structural defects which suppress
individual constitutional rights. The second of the two
federal tests differs from this focus, but includes the
word “bias” in its text. Bias is defined as- “Prejudice
in favor of or against one thing, person, or group
compared with another, usually in a way considered
to be unfair.”18 Hammann demonstrates above that
three separate individual constitutional rights are
being suppressed: equal protection, jury trial, and due
process. The use of the word “bias” in the second
federal test may create a tendency for an objective
evaluator to overemphasize the first of these three
individual constitutional rights and underemphasize
the other two. Since each is equally important, this
possible tendency itself may produce the unintended
potential for bias.
Hammann proposes that this additional standard
apply to all circumstances when a party asserts a
violation of individual constitutional rights. Any
motion. Any defense. Any appeal. Any time.
IV. COURT ERRED IN DECLINING TO GRANT
PROHIBITION
As more fully described at I. above, Hammann is
entitled under the Constitution: (a) to have his case
presided over by an impartial decision-maker! (b) to
not have his case marred by the unequal protection
18 Lexico.com.

25
afforded favorably towards Wells Fargo; (c) to not
have his case marred by the unequal protection
afforded disfavorably against unrepresented parties;
(d) to have the right to a trial; and, (e) to have the
right to a jury trial.
“Liberty under law extends to the full range of
conduct which the individual is free to pursue, and it
cannot be restricted except for a proper governmental
objective.” Bolling at 500-01. Like the petitioners in
Bolling, Hammann is being refused his Constitutional
rights by reason not of the merits of his claims, but by
reason of who he is, who he has asserted those claims
against, and what he has requested, namely his right
to a jury trial. There is no proper governmental
objective for any of these bases in refusal.
Indeed the conduct which Hammann attempted to
prevent through prohibition nonetheless occurred in
the form of the A19-1304 action. Even in seeking a
writ of prohibition, Hammann could not delay the
inexorable misconduct of the courts.
The courts’ conduct imposes upon Hammann an
unfair burden to protect his property rights and this
burden constitutes an arbitrary deprivation of his
liberty in violation of the Due Process Clause. Forcing
Hammann to run the gamut of partial decision
makers all the way through to the United States
Supreme Court, even if ultimately successful, has
already deprived him of his liberty.
Therefore, the lower courts erred in declining to
grant the writ of prohibition.

26

V. COURT ERRED IN DECLINING TO FIND
UNDERLYING ORDERS AND JUDGMENTS
VOID
As more fully described above, in direct response
to the Colfax ruling, the Hennepin County District
Court Chief Judge issued the Standing Order. The
Standing Order identifies nine (9) separate types of
cases impacted by Colfax. App. 11a-13a. The sixth
listed type is “public nuisance” enforcement, which is
the immediate subject matter of the Colfax ruling.
The eighth listed type is “mortgage foreclosures.”
However, the dominant legal form of mortgage
foreclosure in Minnesota is known as foreclosure by
advertisement. Minn. Stat. §580. Therefore, most
legal issues involving foreclosures don’t reach the
court until any foreclosed residential housing eviction
proceedings occur. However, the Standing Order does
not identify foreclosed residential housing and related
cases, which appear to be the largest category type of
cases wherein the housing court’s authority and
subject-matter jurisdiction was clarified by the Colfax
ruling. Based on Hammann’s own cursory review of
the listed plaintiffs in housing court cases, he believes
that foreclosed residential housing eviction and
related cases are substantially larger in number than
all of the listed nine categories combined. These cases
number in the thousands to the low tens of thousands
if one goes back from the late 2000’s mortgage crisis
to the date of the Standing Order.
Like the nine listed case types in the Standing
Order, foreclosed residential housing eviction and
related cases are also outside the authority and
jurisdiction of the housing courts. Therefore, Court
Administration prevents any new housing court cases

27
of this type and prevents any new filings in existing
cases, without disclosing why, other than to refer
persons complaining to the Standing Order.
These facts lead to the rather unremarkable
conclusion that the orders and judgments entered in
all of these prior foreclosed residential housing
eviction and related cases are void.
Orders and judgments issued by the HOP which
are outside of its authority are void. See Colfax. “Rule
60.02(4)... may be used to vacate judgments that are
void due to a court's lack of jurisdiction. . . [When a
court] act[s] completely outside its authority ... its
judgment [i]s tantamount to one rendered despite a
lack of subject matter jurisdiction.” Park Elm
Homeowner's Ass'n v. Mooney, 398 NW 2d 643, 64647 (Minn.App. 1987); cited by Kulinski v. Medtronic
BioMedicus, Inc., 577 NW 2d 499, 502-03 (Minn.
1998) (“a judgment entered by a court without subject
matter jurisdiction is void ab initio”). "A lack of
statutory authority betokens a lack of jurisdiction."
Senior Citizens Coal. ofNe. Minn. v. Minn. Pub. Utils.
Comm’n, 355 N.W.2d 295, 302 (Minn. 1984).
Despite these facts, not only would the appellate
court in the A19-1304 action not acknowledge that the
underlying judgment it was being asked to review is
void, it would not even acknowledge Hamman’s
argument that the underlying judgment it was being
asked to review is void.
It strains credulity that this is by accident. In this
very same underlying case to which Case No. A191304 relates (i.e., Hennenpin County Case No. 27-cvhc-16’719), Wells Fargo prevailed because each of the

28
district and appellant courts would not even
acknowledge the argument that Hammann was
entitled to the benefit of the 90-day notice-to-vacate
requirement provided by the Protecting Tenants at
Foreclosure Act of 2009, Pub.L. No. 111-22, § 702, 123
Stat. 1632, 1661 (codified at 12 U.S.C. § 5220 note
(Supp.V.2012))(“PTFA”) and Minnesota Statute
§504B.285, Minnesota’s own version of the PTFA. See
MN Appellate Case Nos. A16-0737 andA16-116i; 138
S.Ct. 482 (2017) (certiorari denied). This pervasive
pattern of completely ignoring the central argument
of cases the courts do not to wish to rule favorably
upon significantly harms the adversely-affected
parties before it, as well as the public perception of,
and the public trust and confidence in, the judiciary.
For the above reasons, the court erred in declining to
find the orders and judgments void and erred in
declining to even acknowledge the central argument.
VI. COURT ERRED IN EVALUATING
DEEMED DISMISSAL RULE

THE

only
Relatively unique among the states
Minnesota and North and South Dakota currently
Minnesota provides for
follow this practice
commencement-by-service of legal complaints rather
than commencement-by-filing. With commencementby-service, a complaint may be served upon a
defendant, thereby triggering the rules of civil
procedure relating to discovery. With the accelerated
docket procedures implemented by the Hennepin
County Housing Court, cases are usually fullyresolved by the district court before the 60-day initial
disclosure deadline (Minn.R.Civ.P. 26.01), within the
30-day deposition leave requirement period
(Minn.R.Civ.P. 30.01), and before the 30-day

29
discovery response periods for interrogatories,
document requests, and requests for admissions
(Minn.R.Civ.P. 33.01(b), 34.02(c)(1), and 36.01). And
since a district court judgment ends discovery, it
usually simply isn’t permitted to ever occur. As
evident, the court’s pronouncement in Fulminante at
309-310 that “the entire conduct of the [civil case]
from beginning to end is obviously affected by . . . the
presence on the bench of a judge who is not impartial”
applies equally to a partial system of adjudication,
and not merely a partial judge. Through
commencement-byservice, however, one can trigger
the initiation of the discovery rules to conduct
discovery before the housing court takes supervision
over the case and terminates it, provided a defendant
does not elect to file the complaint themselves.
Hammann employed this method to engage in
discovery with Wells Fargo relating to his personal
property repossession claims.
Discovery was fruitful in some respects.
Hammann discovered that one of the reasons Wells
Fargo ignored his Minnesota Statute § 504B.271(2)
request for the return of his personal property was
because it no longer possessed it. Rather than safely
storing it as required by Minnesota Statute (or
initiating a sale and informing Hammann of the sale
date), Wells Fargo simply disposed of it by letting
Hammann’s personal property be taken by others
without compensation.
Discovery also revealed Wells Fargo’s intended
primary defense^ that Hammann abandoned his
residential premises before it locked him out of these
premises.

30
“Wells Fargo admits only that it had no need
to schedule Hammann’s removal from the
premises because Hammann had abandoned
the same on or before the date the locks were
changed and prior to the need to enforce the
writ of recovery entered in favor of Wells Fargo
on November 25, 2015, in the matter of Wells
Fargo v. Jeffrey Busch, Pamela Busch, John
Doe, and Mary Roe, Case No. 27-cv-13-7239.”
Wells Fargo’s July 18, 2018, Response to
Hammann’s First Discovery Requests, Response to
Request for Admission #18.
However, since Hammann lived at the premises
up to and including the day of the illegal lockout,
Hammann sought to obtain from Wells Fargo and its
attorney agents any evidence they possessed to
support this defense that Hammann abandoned the
premises. And here’s where things go sideways in a
very predictable manner. Wells Fargo declined to
provide any documents not in its possession, and
Wells Fargo’s attorney agents claimed attorney client
privilege prevented them from providing any
documents. A claim of attorney client privilege
requires •
(b) Claims of Privilege.
(l) When information subject to a subpoena
is withheld on a claim that it is privileged or
subject to protection as trial-preparation
materials, the claim shall be made expressly
and shall be supported by a description of the
nature of the documents, communications, or

31
things not produced that is sufficient to enable
the demanding party to contest the claim.
Minn. R. Civ. 45.04(b)(1).
Hammann objected to the attorney responses,
arguing that to claim attorney client privilege, they
first needed to provide “a description of the nature of
the documents, communications, or things not
produced.” Since Hammann believed they had no
evidence to support this defense, complying with the
discovery requirements would have revealed the lack
of evidence.
Each attorney agent promised to amend their
responses, but neither did. Like their federal
counterparts, the Minnesota rules of civil procedure
have built-in delays before filing discovery-related
motions. The first is the requirement for a good faith
conference. Minn.R.Civ.P. 37.01(b)(2). The second is
the requirement for a 21-day notice period before
seeking Rule 11 sanctions. Minn.R.Civ.P. 11.03(a)(1).
Hammann first requested a pre-hearing good-faith
conference on February 20, 2019, which he re-iterated
on March 6, 2019. Rather than agree to conference,
each attorney agent again promised to amend their
responses, but neither did. Finally, the attorney
agents agreed to meet and confer on April 23, 2019, a
date they requested, which not coincidentally marked
the one-year anniversary of Hammann’s service of the
supplemental claims. Each attorney agent again
promised to amend their responses, but neither did.
When Hammann served discovery and sanctions
motions upon them, they finally responded, arguing
that Hammann had violated the one-year deemed

32
dismissal rule, and therefore they would no longer
respond to discovery.
Previously unchanged since the Minnesota
Territorial Statutes of 1851, the judiciary modified
the commencement'by service structure effective
July 1, 2015, by amending the Minnesota Rules of
Civil Procedure:
5.04. Filing! Certificate of Service
(a) Deadline for Filing Action. Any action
that is not filed with the court within one year
of commencement against any party is deemed
dismissed with prejudice against all parties
unless the parties within that year sign a
stipulation to extend the filing period. This
paragraph does not apply to family cases
governed by rules 301 to 378 of the General
Rules of Practice for the District Courts.
This has come to be known as the “deemed
dismissal” rule. However, the Minnesota Legislature
intended that personal property repossession claims
be supplemental claims to already-filed eviction
actions. Minn. Stat. §504B.365(4) (“The court hearing
the eviction action shall retain jurisdiction in matters
relating to removal of personal property under this
section.”). Hammann’s 27-cvhc-16-719 action was
filed on February 5, 2106. The date of service of his
supplemental complaint was not part of the record on
appeal because the deemed dismissal rule was never

33
considered by the district court, but was on or around
April 23, 2018, more than two years later.19
In raising the deemed dismissal rule for the first
time on appeal in its responsive filing, Wells Fargo
acknowledged that Hammann’s “quarrel insofar as
the subject Orders are concerned is solely with the
housing court and its staff.” A19-1304 Oct. 11, 2019,
Response at 4-5. Moreover, because the deemed
dismissal rule was never considered by the district
court, Hammann was unable to present other
additional evidence-supported defenses to the rule,
including: (a) equitable estoppel; (b) fraud on the part
of Wells Fargo’s agents; (c) unclean hands; and, (d)
mistake, inadvertence, or excusable neglect.20
“The Nation’s adversarial adjudication system
follows the principle of party presentation. In both
civil and criminal cases, we rely on the parties to
frame the issues for decision and assign to courts the
role of neutral arbiter of matters the parties present.”
United States v. Sineneng-Smith, U.S. _ , (2020)
(internal citations and quotations omitted).
Here, the district court made sua sponte findings
which were ignored by Wells Fargo on appeal in favor
of a new argument and which were not considered by
19 The appellate opinion references a “civil cover sheet.” But
the civil cover sheet in 27-cv-hc-16-719 was filed on February 5,
2016, with the original complaint. Therefore, contrary to the
contention in the opinion, it does not reveal the service date of
the supplemental complaint which was served more than two
years later. See also footnote 20.
20 Notably, a motion by Hammann to enlarge the record on
appeal was denied because “our review is limited to the existing
record.” A19-1304 Aug. 29, 2019, Order.

34
the appellate court. The proper action of the appellate
court was to reject the sua sponte arguments and
remand the case to the district court for further
proceedings, whereupon Wells Fargo could have
raised its new argument and Hammann his defenses.
Absent electing the proper course, the court could
have found that Hammann’s 27-cv-hc-16-719 action
was filed on February 5, 2106, and therefore the
deemed dismissal rule could not apply to
supplemental claims served two years later.
For the above reasons, the appellate court both
erred in considering the argument, erred in enlarging
the appellate record (see fn. 19-20), and erred in its
findings relative to the argument.
CONCLUSION
On June 11, 1963, President John F. Kennedy
addressed the nation on the most pressing domestic
issue of the day, the struggle to affirm civil rights for
all Americans:
“We are confronted primarily with a moral
issue. It is as old as the scriptures and is as
clear as the American Constitution. The heart
of the question is — whether all Americans are
to be afforded equal rights and equal
opportunities.”
President Kennedy’s speech was followed up by
action. Legislation passed Congress and the Courts
(or, at least, some courts) acted to uphold the new
laws. But social progress does not follow an
unchanging pattern. It ebbs and flows like a river’s
current, sometimes rushing forward in a torrent,

35
sometimes moving lazily forward, and sometimes
even caught in a back eddy. The courts currently
operate within a back eddy. Petitioner has brought
these issues to this Court’s attention in numerous
prior petitions without success.
Fate may have this time be different. A man set
himself on fire on the streets of Tunisia and four Arab
World leaders were later toppled. A man died on the
streets in Hammann’s community in Minneapolis,
sparking protests across the world demanding equal
rights and equal opportunities. We stand today in a
torrent of societal change. We simply don’t know
when and how the torrent will slow back down, and
whether, before it does, the courts will get caught in
its maelstrom. To realize equal rights and equal
opportunities, they necessarily must. Today, America
can’t breath. Our system of justice is suffocating us.
The courts suppress individual constitutional
rights. A person has little available means to protect
these individual constitutional rights against this
suppression. These suppressive trends only get worse
with each passing year. We need action. Today. The
Supreme Court must do its part. Petitioner
respectfully prays that the Court grant this petition.
Respectfully submitted,
Jerald A. Hammann
1566 Sumter Avenue N.
Minneapolis, MN 55427
jerrympls@gmail.com
(612) 290-7282
Petitioner, pro se

